Feburary 9, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Atlanta Business Mail Entry Unit –Atlanta,
         GA (Report Number FF-MA-11-013)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Atlanta
Business Mail Entry Unit (BMEU), Atlanta, GA (Project Number 11BR004FF001),
performed November 30 through December 2, 2010. The Atlanta BMEU is in the Atlanta
District of the Capital Metro Area. At the conclusion of FY 2011, we will summarize the
results for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sabanes-Oxley (SOX) Act of 2002 requirements, the Postal
Service must report on the effectiveness of the agency’s internal controls to ensure
accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC) who monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC. FTC conducts tests of key financial reporting
controls. Senior Postal Service leaders use the results to identify and correct internal
control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent public accounting firm’s reliance on
Postal Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether FTC properly conducted
and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010, through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –               FF-MA-11-013
 Atlanta Business Mail Entry Unit – Atlanta, GA



Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all our
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management will have the opportunity to formally respond to the
summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lavetta Smith, acting manager,
at 404-507-8313, or me at 404-507-8317.

    E-Signed by William Rickett
 VERIFY authenticity with ApproveIt




William F. Rickett
Acting Director, Field Financial – Central

Attachment

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                             FF-MA-11-013
Atlanta Business Mail Entry Unit – Atlanta, GA



                                                APPENDIX A: REVIEW RESULTS

      Site Name                                                   Atlanta BMEU
      Finance Number - Unit ID                                    1204400005
      Location Type                                               BMEU
      Scope Period Under Review                                   October 1– November 30, 2010
      FTC Review Program Version and Date                         Review Topic 450000 11/24/2010
      FTC Team                                                    Central




                                                               Did the OIG      Did FTC        Did FTC      Did the OIG agree
                                                                  have        perform the     adequately        with FTC’s
                                                               exceptions/       step in     document its      exceptions/
                                           Did FTC have         findings      accordance         work        findings (or no
                                            exceptions/         that FTC          to its    performed and       exeptions/
FTC Review        FTC Review Step/        findings in this      did not?       program?      the results?       findings)?
Step/Control #    Step Description        step? (Yes/No)        (Yes/No)        (Yes/No)       (Yes/No)          (Yes/No)
104CA63,         Check-in Procedure             No                  No             Yes           Yes                Yes
104CA163
104CA2           Verification of funds          No                  No            Yes           Yes               Yes
                 on deposit
104CA65          Use of Postal Service          No                  No            Yes           Yes               Yes
                 Form 3607-P
104CA66          Reconciliation                 No                  No            Yes           Yes               Yes
                 Process
104CA06          SOX Certification              No                  No            Yes           Yes               Yes
104CA1           Postage Statement              No                  No            Yes           Yes               Yes
                 Completion




                                                                        3
                                                             Restricted Information
